Final Memorandum on the Assessment of NASA’s Information Mission Control Center
Concept (IG-05-003, December 21, 2004)

The NASA Office of Inspector General (OIG) reviewed NASA’s strategy for centralizing
control over Agency networks and information technology (IT) security functions from
the Information Mission Control Center (IMCC). We conducted the review to determine
whether the strategy underlying the IMCC was feasible and warranted continued funding.
We also reviewed the evolution of the intent and functions of the IMCC and whether
NASA adequately analyzed the functional and budget requirements. The original
planning for the IMCC appeared to have been less than rigorous. Further, no formal
articulation of the goal and objective of the IMCC existed. However, over the previous 2
years, NASA had engaged in detailed planning and a procurement process to more
specifically define functional and budget requirements and more fully and effectively use
the IMCC. The strategy at the time of our audit for IMCC was feasible and warranted
continued funding. Although NASA had not yet fully implemented the IMCC, it was
supporting NASA-wide activities under Marshall Space Flight Center management
authority with plans for the IMCC to provide additional services in the future.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
